No. 19-333

ARLENE'S FLOWERS, INC., DBA ARLENE’S
FLOWERS AND GIFTS, ET AL.,

Petitioners,
v.
STATE OF WASHINGTON, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, John D. Ohlendorf, a
member of the Supreme Court Bar, certify that the BRIEF OF AMICUS CU-
RIAE THE ETHICS AND RELIGIOUS LIBERTY COMMISSION OF THE
SOUTHERN BAPTIST CONVENTION, THE ISLAM AND RELIGIOUS
FREEDOM ACTION TEAM OF THE RELIGIOUS FREEDOM INSTITUTE,
AND THE JEWISH COALITION FOR RELIGIOUS LIBERTY in the above
entitled case complies with the typeface requirements of Supreme Court Rule
33.1(b), being prepared in Century Schcolbook 12 point for the text and 10
point for the footnotes, and that this brief complies with the word limitation of
Supreme Court Rule 33.1(g)(x), containing 5,748 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d).

Y |, LL

ly
John D. Ohlendorf

Date: October 17, 2019
